   LEGAL SERVICES
     CORPORATION




         Office of
     Inspector General




Semiannual Report to the Congress
 October 1, 2011 – March 31, 2012


         www.oig.lsc.gov
                TO THE BOARD OF DIRECTORS OF THE
                   LEGAL SERVICES CORPORATION
               AND TO THE UNITED STATES CONGRESS

         A MESSAGE FROM THE INSPECTOR GENERAL


I am pleased to submit this report on the activities and
accomplishments of LSC’s Office of Inspector General (OIG) for the
period October 1, 2011 through March 31, 2012.

During this reporting period we conducted audits relating to the
adequacy of internal controls, particularly with respect to grantee
financial operations, and relating to grantee expenditures and
accomplishments under LSC’s Technology Initiative Grant program.
Audits completed during the period identified a total of nearly
$100,000 in questioned costs.

The Corporation’s 2011 financial statement audit was issued during
the period. The auditors found the financial statements presented
fairly, in all material respects, LSC’s financial position. However, in an
accompanying report, the auditors did identify a significant deficiency
in internal control over financial reporting that led to accounting errors
requiring adjustments of over $1 million. Management responded that
the questioned accounting methodology had been consistently agreed
to by previous auditors, but took appropriate corrective action.

This period marked the completion of the first full year of our Quality
Control Review (QCR) initiative, designed to improve oversight of the
independent audits required annually of LSC grantees. All firms
performing grantee audits are now subject to a QCR at least once
every four years. This period we issued 29 QCRs. Fifteen QCRs
triggered a need for further review; in four cases the audits were
found to have not met requisite standards. We provided a summary
report of the full year’s QCR findings to all firms performing grantee
audits and to all executive directors to inform them of the problems
identified and to help prevent such problems from occurring in the
future.

We opened 22 new investigations and closed 16 investigations during
the reporting period. Among the investigations were criminal cases,
involving fraudulent activity and financial irregularities by grantee
employees, and regulatory matters, including grantee attorneys
conducting outside law practices from their program’s offices. In a
significant case arising from an earlier OIG investigation, two former
grantee employees were convicted and sentenced on guilty pleas to
wire fraud and theft of federal funds.   The two had stolen nearly
$160,000 in grant funds.

We continued to emphasize outreach and educational initiatives as
part of our ongoing efforts to help prevent fraud and abuse in LSC-
funded programs. In addition to maintaining an active schedule of
fraud awareness briefings, we launched a new program of regulatory
vulnerability assessments, working on-site with grantees to identify
internal control or compliance weaknesses that could potentially lead
to bigger problems. We also presented a webinar on travel and
timekeeping fraud (two areas where grantees have been frequently
victimized) and issued advisory memoranda regarding information
security breaches and counterfeit and altered check frauds involving
grantees.

I wish to express my continuing appreciation to LSC’s Board of
Directors for the interest and support they have shown for the work of
the OIG. I also remain deeply appreciative to the Congress for its
steadfast support of this office.


Sincerely,




Jeffrey E. Schanz
Inspector General
April 30, 2012
                                         TABLE OF CONTENTS

OFFICE OF INSPECTOR GENERAL OVERVIEW ......................................................... 1 
AUDITS ........................................................................................................................... 3 
   North Mississippi Rural Legal Services, Inc. – Audit Of Selected
       Internal Controls..................................................................................................... 3 
   Audits of Technology Initiative Grants ......................................................................... 5 
   Examination of Expenditures Incurred for the Performance of TIG
       Grants Awarded to the Center for Arkansas Legal Services .................................. 6 
   FY 2011 Corporate Audit ............................................................................................. 6 
   Statistical Summary ..................................................................................................... 8 
   Oversight of IPA Audits................................................................................................ 9 
     Independent Audits of Grantees............................................................................... 9 
     Desk Reviews of IPA Reports .................................................................................. 9 
     Quality Control Reviews ........................................................................................... 9 
     Follow-up Process.................................................................................................. 10 
     Review of Grantees’ Annual Audit Reports: IPA Audit Findings ............................ 11 
INVESTIGATIONS ........................................................................................................ 12 
   Criminal Proceedings................................................................................................. 12 
     Former Grantee Employees Plead Guilty and Are Sentenced for
          Theft of Nearly $160,000 in Grant Funds ......................................................... 12 
   Personnel Actions ...................................................................................................... 13 
     Two Grantee Attorneys Found to Have Unauthorized Outside Law Practices ....... 13 
     Grantee Employee Admits to Misuse of Funds Paid as Benefits ........................... 13 
   Proactive and Preventive Initiatives ........................................................................... 13 
     News Reports Indicate Violation of LSC Regulations............................................. 14 
     Fraud Awareness Briefings .................................................................................... 14 
     Webinar and Podcast on Timekeeping and Travel Fraud Prevention .................... 15 
     Fraud Vulnerability Assessments ........................................................................... 15 
     Regulatory Vulnerability Assessments ................................................................... 15 
     Fraud Alert ............................................................................................................. 16 
     Hotline .................................................................................................................... 16 
   Statistical Summary ................................................................................................... 17 
OTHER OIG ACTIVITIES.............................................................................................. 18 
   Review of Proposed Legislation, Regulations and Policy .......................................... 18 
   Litigation .................................................................................................................... 18 
   Advisory Memoranda ................................................................................................. 19 
   Freedom of Information Act ....................................................................................... 19 
   Professional Activities and Assistance....................................................................... 19 
APPENDIX – Peer Reviews .......................................................................................... 21 
TABLE I – Audit Reports and Quality Control Reviews Issued ..................................... 22 
TABLE II – Audit Reports Issued with Questioned Costs .............................................. 24 
TABLE III – Audit Reports Issued with Funds to Be Put to Better Use .......................... 25 
TABLE IV – Audit Reports Issued Before this Period with No Management
   Decision on Questioned Costs by End of Period; Audit Reports Issued
   Before this Period with Open Recommendations at End of Period ........................ 26 
TABLE V – Index to Reporting Requirements of the IG Act .......................................... 27 
          OFFICE OF INSPECTOR GENERAL OVERVIEW		

The LSC Office of Inspector General operates under the Inspector General Act of 1978,
as amended, 5 U.S.C. App. 3. The OIG has two principal missions: (1) to assist
management in identifying ways to promote economy and efficiency in the activities and
operations of LSC and its grantees; and (2) to prevent and detect fraud and abuse.

The OIG's primary tool for achieving these missions is objective and independent fact-
finding, performed through financial and other types of audits, evaluations, and reviews
and through investigations into allegations of wrongdoing. Its fact-finding activities
enable the OIG to develop recommendations to LSC, Congress, and grantee
management for actions that will correct problems, better safeguard the integrity of
funds, improve procedures, and otherwise increase the economy, efficiency and
effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its grantees,
conducted by independent public accountants, and with reviewing proposed and
existing regulations and legislation affecting the operations and activities of LSC and the
programs it funds.

In addition, since 1996, LSC's annual appropriations have directed that grantee
compliance with legal requirements be monitored through the annual grantee audits
conducted by independent public accountants, under guidance developed by the OIG.
Congress has also specified that the OIG has authority to conduct its own reviews of
grantees.

The OIG is headed by the Inspector General, who reports to and is under the general
supervision of the LSC Board of Directors. The IG has broad authority to manage the
OIG, including setting OIG priorities and activities, and to hire OIG personnel and
contractors.

To ensure objectivity, the IG Act grants the LSC IG independent authority to determine
what audits, investigations, and other reviews are performed, to gain access to all
necessary documents and information, and to report OIG findings and
recommendations to LSC management, its Board of Directors, and Congress.

The IG Act also prohibits LSC from assigning to its IG any of LSC’s own "program
operating responsibilities." This means that the OIG does not perform functions
assigned to LSC by the Legal Services Corporation Act, 42 U.S.C. §§2996 et seq.,
other than those transferred to the OIG under the IG Act and those otherwise assigned
by Congress, for example in LSC’s annual appropriations acts.




                                            1
The IG reports serious problems to the LSC Board of Directors and must also report to
appropriate law enforcement authorities when, through audit, investigation, or
otherwise, the IG has found that there are reasonable grounds to believe that a crime
has occurred. The OIG is not an "arm" of the Congress, as is the Comptroller General,
but is required by law to keep the Congress informed through semiannual reports and
other means. The IG also provides periodic reports to the Board and management of
LSC and, when appropriate, to the boards of directors and management of LSC
grantees. Some of these reports will be specific (e.g., an audit of a particular grantee or
an investigation of a theft or embezzlement), while others will be of broader application
and may address more general or systemic issues.

To be effective, the OIG works cooperatively with the Board and management of LSC,
seeks their input prior to choosing topics for OIG review, and keeps them informed of
OIG activities. Within their different statutory roles, the OIG and LSC management
share a common commitment to improving the federal legal services program and
increasing the availability of legal services to the poor.




                                            2
                                       AUDITS

During this reporting period, the OIG issued two audit reports, discussed below. The
OIG also provided oversight for the LSC Fiscal Year (FY) 2011 financial statement audit
and transmitted the final audit report to the LSC Board of Directors. In addition, the OIG
issued two draft audit reports to grantee management for comment. Work in progress
at the end of the reporting period included audits at six grantees. Two of these audits
were in the draft report stage; field work was in progress for the remaining four.
Additional audits were in the planning stage.

The OIG has responsibility for overseeing the independent public accountant (IPA)
audits performed annually at each grantee. During the reporting period, the OIG
reviewed 22 IPA reports, with fiscal years ending from June 30, 2011 through
September 30, 2011.

The OIG also issued 29 quality control review (QCR) reports this period under our QCR
initiative and published a summary of the findings for use by IPAs in planning future
work. The goal of this initiative is to improve the overall quality of the audits and to
ensure that all audits are conducted in accordance with applicable standards and with
the guidance provided by the OIG. The OIG required the IPAs for 15 of the audits
reviewed to provide further documentation. Four of the audits were found not to have
met requisite standards. We will be evaluating the information provided and monitoring
action by the IPAs in response to the reviews.

The OIG also conducted a review of another IG organization’s system of quality control
over audits. Our two offices entered into an agreement for each to review the other’s
system of control over audits on an annual basis. We believe this will help ensure that
the control systems are operating as designed and better enable us to catch and correct
any deficiencies that may arise. While all OIG organizations undergo a peer review
every three years, it is incumbent upon each OIG to monitor its systems continuously.
This agreement and the associated reviews represent an extra level of effort to ensure
this requirement is met.


North Mississippi Rural Legal Services, Inc. – Audit Of Selected Internal
Controls

The OIG assessed the adequacy of selected internal controls in place at North
Mississippi Rural Legal Services, Inc. (NMRLS) related to grantee operations and
oversight, in particular those relating to program expenditures, fiscal accountability, and
compliance with selected LSC regulations.

We found that although some controls needed to be strengthened, internal controls
reviewed at NMRLS were generally adequate. Disbursements tested were, for the most
part, found to be adequately supported, allowable, and properly allocated to LSC.

                                            3
Internal controls over compliance with the provisions of 45 C.F.R. Part 1617 were found
to be adequate. We did find, however, several issues that needed management
attention, as discussed more fully in the report.

The OIG found that:

      One employee was paid with LSC funds to work in two positions for the grantee,
       but time records did not adequately support the time required of both positions.
      One attorney was performing duties under two separate grants but not keeping
       adequate time records showing the work performed under one of the grants.
      The grantee did not obtain LSC’s prior approval for a purchase exceeding
       $10,000 in LSC funds.
      The grantee needed to formalize a cost sharing agreement it had with another
       LSC grantee and reconcile shared expenses more timely with the other LSC
       grantee.

As a result of our findings, we questioned $17,351 charged to LSC funds because the
grantee did not obtain LSC’s prior approval for the purchase that exceeded $10,000 in
LSC funds.

Other issues noted included the need to improve recordkeeping procedures for donated
and disposed property; establish controls over approval of travel for the executive
director; update the grantee’s accounting manual to address contracting policies and
procedures; and update the personnel manual to reflect current practices and policies.

The OIG made 12 recommendations. Two of the recommendations addressed
controlling dual compensation and timekeeping. We also recommended that the
grantee establish controls to ensure that major purchases are approved by LSC in
advance; formalize in writing a shared expense agreement with another LSC grantee
and obtain monies owed by the other grantee; and properly document donated assets
and the disposal of assets. Two recommendations addressed improving controls over
the executive director’s travel. Other recommendations suggested that the grantee’s
policies and procedures be strengthened by including the policies used for contracting
in the accounting manual and by including current personnel practices in the personnel
manual.

Grantee management’s actions taken or planned were responsive to all 12 of the
recommendations. Six of the 12 recommendations will remain open until all stated
grantee management actions are completed and appropriate written notification is
provided to the OIG.

The grantee disagreed with the finding that the purchase of their accounting system (the
subject of the $17,351 questioned cost) required prior LSC approval as it exceeded
$10,000. The grantee stated that since the purchase was not a single purchase, but
three separate purchases of items under $10,000, LSC regulations and guidance did
not require the grantee to obtain prior LSC approval.

                                           4
The OIG disagreed with the grantee comments. While the grantee did make three
separate purchases, the items purchased were all part of obtaining an individual item –
an accounting system. We concluded that the three purchases were more than related
items, but were components necessary for the system to work properly. The grantee
had a contract for the accounting system that included multiple items, including
software, training, set-up, transfer of data, etc.; all were necessary elements of the
system. Since the cost of the accounting system exceeded $10,000, we concluded that
prior approval was required under LSC regulations and guidance. Despite their
disagreement with the questioned cost finding, grantee management agreed with the
underlying recommendation and indicated they would make appropriate changes to
their purchasing policies and procedures.


Audits of Technology Initiative Grants

As reported in our last report to Congress, the OIG has begun audits of grantees
receiving Technology Initiative Grants (TIGs). The audits focus on whether TIG
expenditures were allowable and supported, and whether the stated purposes of the
TIG have been achieved. This initiative is a follow-on to our FY 2011 audit report on the
TIG program at LSC headquarters.

Because LSC does not normally maintain information on the actual expenditures
charged to these grants, the OIG obtained expenditure information from grantees on
completed and terminated TIGs. To determine which TIGs to review the OIG analyzed
the information provided on 120 grants, valued at a total of just under $9 million,
awarded to 65 separate grantees. We will conduct a field visit to the grantee for each
grant selected for review. Since the TIGs selected for review have been closed, our
reports are directed to LSC management rather than to the individual grantee. We do,
however, provide our draft findings to grantee management and invite their comments
as part of our report preparation process.

Our reports will provide an opinion on the expenditures charged to the grant, refer any
questioned costs to LSC management, if necessary, and render a conclusion as to
whether the stated purpose of the grant had been accomplished. In addition, to the
extent we can identify potential improvements to the overall program or areas for
strengthening grant oversight, appropriate recommendations will be made to LSC
management.

This reporting period the OIG issued one report, described below, and initiated audits
on two other TIGs.




                                           5
Examination of Expenditures Incurred for the Performance of TIG Grants
Awarded to the Center for Arkansas Legal Services

The OIG examined expenditures incurred for the performance of TIGs awarded to the
Center for Arkansas Legal Services (CALS). The objectives of the examination were to
determine whether the expenditures for seven CALS TIGs totaling $240,000 were
allowable and whether the stated purposes of the TIGs were achieved.

The OIG concluded that the stated purposes of the seven TIGs appeared to have been
met. However, the OIG also concluded that for four grants, $82,300 of personnel and
fringe benefit expenditures were not supported by adequate documentation as required
by TIG assurances. (As a condition of receiving a TIG, each grantee executes a grant
assurance document, undertaking to comply with specified terms and conditions of the
grant.) TIG assurances reference LSC regulations and guidelines that describe
documentation requirements for supporting costs. The accurate determination of TIG
project costs is important since TIG assurances also require that funds provided in
excess of project costs be returned to LSC or reprogrammed to other projects with the
approval of LSC.

The grantee’s response indicated that LSC management never provided written
instructions showing that labor hours were to be used to distribute expenses to its TIGs
based on personnel activity reports or timekeeping. However, we noted that TIG
assurances require compliance with LSC regulations, guidelines, and directives that do
provide specific written instructions about timekeeping requirements. As a result of the
audit, the OIG referred $82,300 in questioned costs to LSC management.


FY 2011 Corporate Audit

The FY 2011 LSC financial statement audit report was issued this reporting period and
transmitted to LSC’s Board of Directors. The Corporation’s financial statement audit is
conducted by an independent public accounting firm under contract to and subject to
general oversight by the OIG. The OIG reviewed the work of the IPA and found it in
compliance with generally accepted government auditing standards.

The Independent Auditor’s Report stated that LSC’s financial statements present fairly,
in all material respects, the financial position of LSC as of September 30, 2011, and the
results of its operations and changes in its fund balance for the year then ended. The
auditor’s Report on Internal Control over Financial Reporting and on Compliance and
Other Matters, accompanying the financial statement audit report, did identify a
significant deficiency dealing with LSC’s methodology in accounting for receivables.

The auditor noted a deficiency in the design of controls relating to management’s
assertion that receivables are properly valued in the financial statements in accordance
with generally accepted accounting principles (GAAP). The auditor found that LSC did
not have in place a control that was designed to meet this control objective. This

                                           6
deficiency affected both the FY 2010 financial statements and the FY 2011 statements.
The auditor found that the receivable balance related to LSC’s Loan Repayment
Assistance Program (LRAP) was not properly adjusted to reflect management’s
estimate of the net realizable value. (The LRAP provides loan funding to repay student
loan debt for individuals who work for LSC grantees and who meet certain eligibility
requirements.) The auditor concluded that as a result, the accounts receivable balance
was overstated, since the direct write-off method was being used rather than the
allowance method, which is required by GAAP to more accurately represent future cash
flows. Adjustments of more than $1 million were required to properly reflect the current
year’s receivable balance.

The auditor recommended that LSC evaluate the receivable balance each year and
adjust the allowance account to an appropriate amount based on its assessment of the
current status of individual accounts. The auditor also recommended that management
consider using a financial statement preparation and disclosure checklist when it
prepares its annual financial statements.

LSC management stated that the same methodology had been used for LRAP
accounting for both 2010 and 2011, and was also used for all prior years of the LRAP's
existence. Management also stated that a significant annual reduction in loans
receivable was made each year as recipients' balances have been forgiven.
Management further stated that this methodology was discussed with its auditors in
prior years, and the auditors agreed that it was appropriate. However, management did
agree that it was appropriate to adjust the loan receivable balances to reflect
management's estimate of the net realizable value, and that management will evaluate
and adjust the receivable balance annually based on its assessment of the current
status of individual accounts. The balances have been adjusted for FY 2010 and FY
2011, as recommended.          The auditor concluded that management’s proposed
corrective actions were responsive to the finding.




                                           7
                                        Statistical Summary


Audit Reports

       Open at beginning of reporting period ..................................... 4

       Issued during reporting period ................................................. 3

       Closed during reporting period ................................................ 2

       Open at end of reporting period ............................................... 51


Recommendations to LSC Grantees

       Pending at beginning of reporting period ............................... 19

       Issued during reporting period ............................................... 12

       Closed during reporting period ................................................ 7

       Pending at end of reporting period ........................................ 24


Recommendations to LSC Management

       Pending at beginning of reporting period ............................... 24

       Issued during reporting period ................................................. 1

       Closed during reporting period .............................................. 14

       Pending at end of reporting period ........................................ 11




1
 Legal Aid of North Carolina responded to open recommendations on March 27, 2012. Grantee
corrective actions were being evaluated as of the close of the reporting period.

                                                      8
                              Oversight of IPA Audits


Independent Audits of Grantees

Since 1996, LSC’s annual appropriations acts have required that each person or entity
receiving financial assistance from the Corporation be subject to an annual audit, to be
conducted by an independent public accountant (IPA). Each grantee contracts directly
with an IPA to conduct the required audit in accordance with generally accepted
government auditing standards and the OIG Audit Guide for Recipients and Auditors
(including the Compliance Supplement), which incorporates most requirements of OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.

The OIG provides guidance to the IPAs and grantees, as well as general oversight of
the IPA process. Our oversight activities include desk reviews and a recently enhanced
program of quality control reviews.


Desk Reviews of IPA Reports

The OIG conducts desk reviews of all IPA reports issued to grantees. This process
enables us to identify and forward to LSC management significant IPA findings that
require management’s attention. We also track whether recommendations have been
acted upon and appropriate actions taken by the grantee. In addition, we use
information from this review of 100% of IPA reports as part of our risk assessment and
planning processes, identifying potential problems or concerns that may warrant follow-
up via audit, investigation, or other review.


Quality Control Reviews

The OIG completed its first year of its new QCR initiative. The QCR initiative is a
comprehensive program under which all IPA firms performing grantee audits will be
subject to at least one QCR every four years. The QCRs determine whether the IPA’s
financial statement audit work, compliance audit work, and the associated review of
internal controls over both financial reporting and compliance were conducted in
accordance with applicable standards and in compliance with the instructions issued by
this office. The reviews are conducted by a CPA firm under contract to the OIG. The
contractor also identifies issues that may require additional attention or any additional
audit work by the IPA under review.

Quality Control Reviews – First Year Results

This reporting period the OIG issued 29 QCR reports to IPAs. The OIG issued seven
QCRs last reporting period, for a combined total of 36 QCRs for the year. The QCRs

                                           9
resulted in four audits being classified as not meeting standards. For 15 QCRs, the
IPAs were required to provide the OIG with additional documentation to support the
conclusions reached. For 20 QCRs, additional documentation was not required at this
time, but the IPAs needed to ensure that additional steps were taken on future audits of
LSC grantees. For one IPA, no deficiencies were noted in the QCR. The OIG will
review all additional documentation required to be provided by the IPAs to ensure that
LSC grantees receive an acceptable audit.

Only a limited range of issues was identified in connection with the financial review
aspects of the QCRs. Moreover, the audit work related to the internal control and fraud
analysis was found to be almost universally adequate. Most of the issues identified in
the QCRs resulted from either inadequate documentation of the work performed or
inadequate attention to certain requirements in the LSC Compliance Supplement.

Quality Control Reviews Advisory Memorandum

In addition to the individual QCR reports, the OIG issued an advisory memorandum to
all IPAs and grantee executive directors. The purpose of the advisory was to highlight
the deficiencies identified so that this information can be used in planning and
conducting future audits. We are hopeful that this will help in preventing similar types of
deficiencies from occurring in the annual audits of LSC grantees.

The advisory memorandum, with a complete list of the specific deficiencies identified,
can be found at our website (www.oig.lsc.gov) under the heading, “Advisory to
Executive Directors and Grantee Public Accountants, Quality Control Reviews.”


Follow-up Process

LSC’s annual appropriations acts have specifically required that LSC follow-up on
significant findings identified by the IPAs and reported to the Corporation’s management
by the OIG. IPA audit reports are submitted to the OIG within 120 days of the close of
each grantee’s fiscal year. As noted above, through our desk review process the OIG
reviews each report and refers appropriate findings and recommendations to LSC
management for follow-up. LSC management is responsible for ensuring that grantees
submit appropriate corrective action plans for all material findings, recommendations,
and questioned costs identified by the IPAs and referred by the OIG to management.

After corrective action has been taken by the grantee, LSC management advises the
OIG and requests that the finding be closed. The OIG reviews management’s request
and decides independently whether it will agree to close the finding.




                                            10
Review of Grantees’ Annual Audit Reports: IPA Audit Findings

In order to provide more complete information in our semiannual reports to Congress,
the OIG customarily includes a summary of significant findings and the status of follow-
up on significant findings reported by the IPAs as part of the grantee oversight process.
The audit reports and the findings identified below reflect the work of the IPAs, not the
OIG.

During the reporting period, the OIG reviewed 22 audits of grantees with fiscal year
ending dates from June 30, 2011 through September 30, 2011. These audit reports
contained seven findings. The OIG reviewed the findings and determined that all seven
findings were either not significant or that corrective action had already been completed,
and closed the findings. No findings in the grantee audit reports for fiscal years ending
from June 30, 2011 through September 30, 2011 were referred to LSC management for
follow-up.




                                           11
                                 INVESTIGATIONS

The OIG opened 22 investigations during this reporting period. These included 9
criminal investigations, 4 compliance matters, 4 fraud vulnerability assessments, and 5
regulatory vulnerability assessments. The criminal investigations included allegations of
fraudulent activity and financial irregularities. The compliance investigations included
allegations of violations of LSC statutes and regulations involving matters such as the
outside practice of law and retaliation.

During the reporting period the OIG closed 16 investigations. These included 3 criminal
investigations, 7 compliance matters and 6 fraud vulnerability assessments. The OIG
also issued 13 Inspector General subpoenas in connection with our ongoing work.


                                 Criminal Proceedings

                             Guilty Pleas and Sentencing


Former Grantee Employees Plead Guilty and Are Sentenced for Theft of
Nearly $160,000 in Grant Funds

The former office manager of U’una’i Legal Services Corporation of American Samoa, a
now-defunct LSC grantee, and her daughter, who was employed as a paralegal at the
grantee, entered guilty pleas in U.S. District Court for the Northern District of California,
pursuant to plea agreements with the U.S. Department of Justice (DOJ). The office
manager pled guilty to one felony count of wire fraud and the daughter pled guilty to one
misdemeanor count of theft of federal funds.

As part of their plea agreements, the office manager and her daughter admitted to their
roles in defrauding the grantee. The office manager admitted to making and receiving
unlawful payments from federal grant funds, including paying numerous unlawful “salary
advances” to herself, her daughter, and the then executive director of the grantee. The
office manager created false time records and took other steps to avoid repayment of
the ostensible salary advances. The office manager also admitted to placing other
family members on the grantee’s payroll for jobs not permitted by the grants and to
benefitting from the pay that her family members received.

The office manager was sentenced to 12 months and one day imprisonment, to be
followed by 3 years supervised release. Her daughter was sentenced to 12 months
probation, including 6 months house detention. Both were ordered to provide specified
hours of community service throughout their terms of probation. In addition, both were
ordered to make full restitution of the moneys stolen from the grantee in the amount of
$159,763, for which they are to be jointly and severally liable.



                                             12
The former executive director of the program, also a participant in the scheme,
previously pled guilty to theft of federal grant funds and was awaiting sentencing as of
the close of the reporting period. This prosecution resulted from a joint investigation by
the OIG and DOJ OIG, with assistance from the FBI.


                                  Personnel Actions


Two Grantee Attorneys Found to Have Unauthorized Outside Law Practices

The OIG received information from a confidential source indicating that two attorneys
working for an LSC grantee had unauthorized outside law practices. LSC regulations
and the grantee’s outside employment policy prohibit employees from engaging in the
outside practice of law, except when the representation meets specified criteria and
permission is granted by the executive director. The OIG conducted an investigation
and determined that for several years both attorneys, without proper authorization and
in violation of LSC regulations, had been conducting outside practices.

One individual was a managing attorney for the grantee; the other was a staff attorney.
Both attorneys, without the knowledge of the executive director, had provided services
to private clients, including guardian-ad-litem services in court-appointed cases. The
managing attorney also sat as a court-appointed divorce master. Both attorneys
received compensation for their outside work and worked on the matters during grantee
office hours. The attorneys also used the grantee’s name and address on pleadings for
their private cases, in violation of LSC regulations. The staff attorney was also found to
have used the grantee’s support staff to draft and sign pleadings for his private clients.
The two attorneys were terminated by the grantee.


Grantee Employee Admits to Misuse of Funds Paid as Benefits

A grantee reported that one of its paralegals improperly kept her ex-spouse enrolled
under her employer’s medical plan by failing to report her divorce to the grantee’s
human resources office. The OIG conducted an investigation and determined that the
grantee spent $3,975 in health insurance premiums for the ex-spouse over a 9-month
period. During an interview with the OIG, the employee admitted neglecting to report
her divorce and acknowledged responsibility for repayment of the funds to the grantee.
The employee signed a promissory note to reimburse the grantee the full amount owed
plus interest, with payments to be made through payroll deductions over a two year
period.

                        Proactive and Preventive Initiatives

The OIG maintains an active fraud prevention program, engaging in a variety of
outreach and educational efforts intended to help protect LSC and its grantees from
fraud and abuse.     We regularly conduct fraud awareness briefings and fraud

                                           13
vulnerability assessments, as described below, and provide fraud alerts and other
information that we believe will help increase grantees’ awareness of potential
vulnerabilities. Also during this reporting period the OIG introduced a new preventive
initiative, regulatory vulnerability assessments, discussed below.


News Reports Indicate Violation of LSC Regulations

Recently, the OIG identified several news articles indicating that a grantee attorney had
engaged in a public demonstration, which is prohibited by LSC regulations (45 CFR
§1612.7). The OIG sent a letter to the program requesting additional information. In
response, the program admitted that there had been a violation and took prompt
corrective action, including requiring program-wide training on the relevant LSC
regulations.


Fraud Awareness Briefings

Fraud awareness briefings (FABs) are presented by OIG investigators and cover topics
such as who commits fraud, why people commit fraud, how fraud can be prevented,
how fraud can be detected, and what to do if fraud is suspected.

While individuals at LSC-funded programs may be generally aware that fraud and
abuse can occur at any organization, they may not be aware of the potential for such
incidents to occur “close to home,” within their own programs. Moreover, program staff
often may think that if there is such wrongdoing, it must be minimal. Our briefings
highlight the unfortunate truth that in recent years a number of LSC-funded programs
have been victimized by frauds involving hundreds of thousands of dollars, and even in
one case the diversion of over a million dollars in grant funds. The FABs describe
common types of fraud, with particular focus on the various schemes that have been
perpetrated against LSC grantees and the conditions that helped facilitate the losses.
The briefings aim to foster a dialogue with staff and to engender suggestions for ways to
help protect their own programs from fraud and abuse.

LSC grantees are invited to request a fraud awareness briefing at a time and place
convenient to them. We make every effort to accommodate requests as promptly as
possible. We encourage attendance by all program staff and welcome the grantee’s
board members, their IPAs, and other interested parties.

This reporting period the OIG conducted eight fraud awareness briefings for LSC-
funded programs in Florida, Mississippi, Oklahoma (two), Delaware, California (two),
and Arkansas.




                                           14
Webinar and Podcast on Timekeeping and Travel Fraud Prevention

Due to the interest shown by several grantees in the OIG’s September 30, 2011 fraud
alert, Advisory Bulletin on How to Prevent and Detect Fraudulent Travel and
Timekeeping Submissions, the OIG developed a webinar presentation to provide
grantees with additional information on how to prevent timekeeping and travel fraud.
The webinar was presented on December 13, 2011. The OIG invited staff from all LSC
programs to participate. Based on the positive feedback we received after the webinar
presentation, the OIG posted the slides and a podcast recording of the presentation on
our website.


Fraud Vulnerability Assessments

The OIG’s fraud vulnerability assessments (FVAs) are conducted on-site at individual
grantee’s offices and consist of a focused document review in any areas considered
weak or prone to abuse and a review of grantee internal control policies and the degree
to which those policies are observed in practice. We also brief the executive director
and principal financial officer on fraud detection and prevention measures keyed to their
particular program. The FVAs can help grantees identify both existing vulnerabilities
and potential problem areas.

We continued our project to analyze per capita costs in program travel and office supply
expenditures, areas that have often been focal points for diversion of program funds,
and to conduct FVAs at programs with apparent anomalies in their spending patterns.
Project findings are incorporated into the FVA program on an on-going basis.

Six FVAs were completed during the reporting period, including three that were begun
during the prior period.


Regulatory Vulnerability Assessments

During the reporting period, the OIG initiated a pilot program of regulatory vulnerability
assessments (RVAs). RVAs are conducted on-site at individual grantee’s offices. This
initiative was triggered by our experience in recent years in investigating numerous
financial frauds in which grantees have been victimized. We often found that the failure
to comply with, or laxity with respect to, certain LSC regulations, grant assurances,
provisions of the Accounting Guide, and case documentation and reporting
requirements (as set forth in the Case Service Report handbook) contributed to an
environment that increased the potential for fraud. This was also, in part, the subject of
our recent fraud alert (September 30, 2011), highlighting common internal control
weaknesses and pointing out that compliance with specified requirements could help
prevent several recurring types of fraud. We believe that by focusing on certain key
areas, in addition to identifying potential problems from a strictly regulatory compliance


                                           15
point of view, grantees might also benefit by applying the classic “ounce of prevention”
to areas where there is the potential for broader financial vulnerabilities.

During the reporting period, the OIG completed field work on one RVA and initiated four
additional RVAs. The completed RVAs will be reported in the next reporting period.


Fraud Alert

During the reporting period, a fraud alert was issued to inform grantees of several
checking account frauds perpetrated against LSC grantees. The frauds involved
several instances of grantee checks being either counterfeited or altered. In the
counterfeit check schemes individuals had designed, printed, and negotiated counterfeit
checks that contained the grantee’s correct checking account and bank routing
numbers. The altered check schemes involved legitimate grantee checks that were
altered by changing the payee or amount of the checks and negotiating the checks.
The fraud alert informed grantees of methods to prevent counterfeit and altered check
fraud and the actions that grantees should take in the event counterfeit or altered
checks are identified. The OIG also provided grantees with reference material to assist
in preventing and detecting these types of schemes.


Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC grantees
or Corporation staff. Information may be provided by telephone, fax, email, or mail.
Upon request, a provider’s identity will be kept confidential. Reports may also be made
anonymously. During this reporting period, the OIG received 98 Hotline contacts
(compared to 62 for the previous period). Of these matters, 10 were referred to LSC
management for follow-up; 13 were opened as investigations; 3 are open pending
further inquiry; and the remaining 72 were closed.




                                          16
                                           Statistical Summary

Investigative Cases

    Open at the beginning of period ............................................ 18
    Opened during the period...................................................... 22
    Closed during period ............................................................. 16
    Open at the end of period...................................................... 24


Prosecutorial Activities

    Guilty pleas ............................................................................. 2
    Sentencing .............................................................................. 2


Investigative Activities

    Inspector General subpoenas issued .................................... 13




                                                           17
                            OTHER OIG ACTIVITIES

Review of Proposed Legislation, Regulations and Policy

Pursuant to the IG’s statutory responsibilities, the OIG reviews and, where appropriate,
comments on statutory and regulatory provisions affecting LSC and/or the OIG, as well
as LSC interpretive guidance and internal policies and procedures.

Among the most significant items addressed this period was the Notice of Proposed
Rulemaking (NPRM) published by LSC on January 31, 2012, proposing amendments to
LSC’s regulations on termination procedures, enforcement, and suspension procedures.
The OIG has had a long-standing interest in this subject matter, having made
comparable recommendations to the Board of Directors and LSC management at
various times over the past 10 years. In April 2007, the OIG recommended to the Board
of Directors that LSC issue a regulation allowing for lesser sanctions and other tools to
help ensure compliance with grant terms by providing enforcement options that would
be both more streamlined and less severe than were otherwise available.

We believe the regulatory changes contemplated by the current NPRM will increase
LSC’s flexibility as a grant administrator and go a long way toward remedying
shortcomings in LSC’s existing enforcement mechanisms. We are providing detailed
comments in response to the NPRM, including suggestions for further improvements to
the proposed amendments to 45 CFR Parts 1618 and 1623. Subject to those
recommendations, we support adoption of the regulations proposed in the NPRM.


Litigation

On November 14, 2011, the United States District Court for the District of Columbia
issued an order granting the OIG’s petition for enforcement of a subpoena it had issued
to California Rural Legal Assistance (CRLA). In a memorandum opinion accompanying
the order, the court held, consistent with the position of the OIG, that state law privileges
do not bar disclosure of information falling within Section 509(h) of LSC’s appropriations
act. That provision specifies that certain client identifying and other information is
accessible by auditors and monitors of LSC recipients, including the OIG. The court
further held that California professional responsibility rules do not prohibit disclosure of
any of the information sought by the OIG and that state attorney-client or work product
protections do not limit the information available pursuant to the OIG’s subpoena.

The court held that the OIG’s subpoena was issued for a lawful purpose and that the
information sought was reasonably relevant to the OIG’s investigative purpose. The
court also concluded that OIG’s proposed review protocol could allow for adequate
privilege review of the electronic data sought by the subpoena without overburdening
CRLA. The court acknowledged the sensitivity of the information sought and ordered
the parties to submit a revised proposed protective order. Subject to this revised

                                             18
protective order, the court enforced the subpoena as narrowed by agreement of the
parties in the course of litigation and as requested by the OIG.

On December 13, 2011, CLRA appealed the district court’s order granting enforcement
of the OIG’s subpoena. On January 12, 2012, the OIG filed a cross-appeal. The
parties now await the establishment of a briefing and argument schedule for the appeal.


Advisory Memoranda

During the reporting period, the OIG issued a grantee advisory memorandum to all
executive directors to inform them of several instances of significant information security
breaches that had occurred within the past few years. One instance involved the loss of
extensive database information; another concerned the loss of client files. The grantee
advisory stressed the importance of securing confidential information against both
electronic breaches and physical theft. It also explained how compliance with specified
LSC grant assurances and good IT security practices (detailed in the memorandum)
could help grantees prevent such types of incidents from occurring in their own
programs.

During the period the OIG transmitted a recommendation to the LSC president that, in
light of the approaching elections, it would be advisable to remind LSC and grantee
employees of the provisions of the LSC Act and the Hatch Act restricting certain political
activities. LSC’s president concurred with the recommendation and issued memoranda
to LSC employees and executive directors of all LSC grantees to alert them to the
relevant restrictions.


Freedom of Information Act

The OIG is committed to complying fully with the requirements of the Freedom of
Information Act (FOIA). During this reporting period, the OIG received three FOIA
requests; all were responded to within the requisite timeframes.


Professional Activities and Assistance

The OIG participates in and otherwise supports various activities and efforts of the
Council of the Inspectors General on Integrity and Efficiency (CIGIE), as well other inter-
agency and professional groups. The Inspector General serves as a member of the
CIGIE Audit Committee, which focuses on government auditing standards and cross-
cutting audit issues. Senior OIG officials are active participants in IG community peer
groups in the areas of audits, investigations, inspections and evaluations,
communications, and legal counsel. The groups provide forums for collaboration and
are responsible for such initiatives as developing and issuing professional standards,
establishing protocols for and coordinating peer reviews, providing training programs,


                                            19
and promulgating best practices. The OIG also routinely responds to requests for
information or assistance from other IG offices.




                                      20
                      APPENDIX – PEER REVIEWS

The following information is provided pursuant to the requirements of Section 989C of
Public Law 111-203 (July 21, 2010), the Dodd-Frank Wall Street Reform and Consumer
Protection Act, amending the Inspector General Act of 1978 (the IG Act), 5 U.S.C. App
3. The references are to the newly added provisions of Section 5(a) of the IG Act.

(14)(B) – The last peer review of the OIG was conducted by the Corporation for Public
Broadcasting, Office of Inspector General. A system review report with a rating of
“Pass” was issued on September 30, 2011.

(15) – There are no outstanding recommendations from any peer review of the OIG
conducted by another Office of Inspector General that have not been fully implemented.

(16) – No peer reviews were conducted by the OIG of another Office of Inspector
General during the reporting period. The last peer review conducted by this office was
of the National Railroad Passenger Corporation (Amtrak), Office of Inspector General’s
Audits organization. The report was dated September 30, 2009. We have been
advised by that office that a system has been developed and is fully operational that
accurately tracks required continuing professional education (CPE) credits. There are
no recommendations outstanding or not fully implemented.




                                         21
                                               TABLE I

            Audit Reports and Quality Control Reviews Issued
                       for the Period Ending March 31, 2012


                                          Audit Reports
                                                                              Funds
                                                                              Put to
                                                    Date      Questioned      Better     Unsupported
Report Title                                       Issued       Costs          Use         Costs1

Legal Services Corporation FY 2011 Financial      01/19/12         $0           $0            $0
Statement Audit Report

Examination of Expenditures Incurred for the      02/27/12      $82,300         $0         $82,300
Performance of TIG Grants Awarded to
Center for Arkansas Legal Services

Report on Selected Internal Controls – North      03/30/12      $17,351         $0            $0
Mississippi Rural Legal Services




1
    Unsupported costs are a subset of questioned costs and included in the question cost amount.

                                                    22
                    Quality Control Reviews


                                                                      Date 
      IPA                              Recipient                      Issued 
                                                                       
1     Drees, Riskey & Vallager         LS Northwest Minnesota         12/15/11
2     Drees, Riskey & Vallager         Anishinabe LS                  12/15/11
3     McGee, Hearne & Paiz             LA of Wyoming                  01/17/12
4     Saunders & Associates            LAS of Oklahoma                01/17/12
5     Vachon Clukay & Co.              Legal Advice & Referral Ctr.   01/17/12
6     Eide Bailly                      East River LSC                 01/17/12
7     Justin J. Scanlan, CPA           Southeast Louisiana LSC        01/17/12
8     McCauley, Nicolas & Co.          Legal Aid Society              01/17/12
9     Ketel Thorstenson                Dakota Plains LS               01/17/12
10    DeVries CPAs of Arizona          Southern Arizona LA            02/03/12
11    Carr, Riggs & Ingram             Three Rivers LS                02/03/12
12    Marks Nelson Vohland Campbell    LA Western Missouri            02/03/12
13    Daniel Dennis & Co.              Volunteer Lawyers              02/03/12
14    Mauldin & Jenkins                George LSP                     02/03/12
15    J. Miller & Associates           LA Southeastern Penn           02/16/12
16    J. Miller & Associates           Southwestern Penn LS           02/16/12
17    J. Miller & Associates           Laurel LS                      02/16/12
18    J. Miller & Associates           Neighborhood LS                02/16/12
19    Cole & Reed                      Oklahoma Indian LS             02/16/12
20    Sanders & Associates             Idaho LAS                      02/16/12
21    Banks, Finley, White & Co.       Mississippi Ctr. for LSC       02/16/12
22    Cowart Reese Sargent CPAs        West Tennessee LS              02/16/12
23    Bernard J. Egan, CPA             South Jersey LS                02/16/12
24    Burt and Company                 New Mexico LA                  02/16/12
25    Lawrence B. Goodman & Co.        Northeast New Jersey LSC       02/27/12
26    Walker & Co.                     Legal Aid Bureau               02/28/12
27    VonLehman & Company              LA of Bluegrass/Northern KY    03/09/12
28    BKD, LLP                         Cumberland Trace/Kentucky LA   03/09/12
29    TCBA Watson Rice                 LS Greater Miami               03/09/12




                                       23
                                                 TABLE II

                Audit Reports Issued with Questioned Costs
                       for the Period Ending March 31, 2012
                                                      

                                                   Number
                                                     of        Questioned      Unsupported Costs1
                                                   Reports       Costs

    A. For which no management decision has              3      $292,163             $227,685
            been made by the commencement
            of the reporting period.


    B. Reports issued during the reporting               2       $99,651              $82,300
           period

       Subtotals (A + B)                                 5      $391,814             $309,985

    C. For which a management decision was               3      $292,163             $227,685
            made during the reporting period:
                                                                         2
           (i) dollar value of recommendations           3       $54,575              $18,211
                that were agreed to by
                management

          (ii) dollar value of recommendations           2      $237,589             $209,474
                that were not agreed to by
                management

    D. For which no management decision had              2       $99,6513             $82,300
            been made by the end of the
            reporting period

        Reports for which no management                  0          0                    $0
           decision had been made within six
           months of issuance




1
  Unsupported costs are a subset of questioned costs and are included in the question cost amount.
2
  For two reports, grantee management provided evidence that before the questioned cost process was
initiated or before it was complete the LSC account had been repaid. These amounts, $27,600 and
$3,951, are included in the amount reported as agreed to by management.
3
  Questioned costs of $17,351 for North Mississippi Rural Legal Services were formally referred to LSC
management after the close of the reporting period.

                                                    24
                                        TABLE III

Audit Reports Issued with Funds to Be Put to Better Use
               for the Period Ending March 31, 2012

                                                             Number of   Dollar
                                                              Reports    Value

A. For which no management decision has been made by            0         $0
        the commencement of the reporting period.


B. Reports issued during the reporting period                    0        $0

        Subtotals (A + B)                                        0        $0

C. For which a management decision was made during the           0        $0
        reporting period:

        (i) dollar value of recommendations that were            0        $0
             agreed to by management
        (ii) dollar value of recommendations that were not       0        $0
                   agreed to by management

D. For which no management decision had been made by             0        $0
        the end of the reporting period


   Reports for which no management decision had been             0        $0
       made within six months of issuance




                                                25
                                             TABLE IV

      Audit Reports Issued Before this Reporting Period for
        Which No Management Decision on Questioned
       Costs Was Made by the End of the Reporting Period

                                             Date         Questioned
            Report Title                    Issued          Costs                  Comments

                None                         N/A              N/A                      N/A




         Audit Reports Issued Before this Reporting Period
                            with Open Recommendations
                     as of the End of the Reporting Period


                                                           Date
                    Report Title                          Issued                Comments

Audit of LSC’s Technology Initiative Grant Program        12/08/10   During this reporting period, 13
                                                                     of 24 open recommendations
                                                                     were closed.

Report on Selected Internal Controls: Appalachian         08/22/11   Corrective action still in process
Research and Defense Fund of Kentucky                                of being implemented.

Report on Selected Internal Controls:                     09/30/11   LSC management is working
Legal Services of Northern Virginia, Inc.                            with the grantee to resolve all
                                                                     open recommendations.

Report on Selected Internal Controls:                     09/30/11   Request to close all open
Legal Aid of North Carolina, Inc.                                    recommendations was received
                                                                     on March 27, 2012. Information
                                                                     provided was being evaluated as
                                                                     of the close of the current period.




                                                     26
                                                 TABLE V

                          Index to Reporting Requirements
                               of the Inspector General Act
    IG Act
  Reference*                                Reporting Requirement                                 Page

 Section 4(a)(2)    Review of legislation and regulations                                          18

 Section 5(a)(1)    Significant problems, abuses, and deficiencies.                                6-7

 Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and              6-7
                    deficiencies.

 Section 5(a)(3)    Prior significant recommendations on which corrective action has not           26
                    been completed.

 Section 5(a)(4)    Matters referred to prosecutive authorities.                                  None

 Section 5(a)(5)    Summary of instances where information was refused.                           None

 Section 5(a)(6)    List of audit reports by subject matter, showing dollar value of questioned   22-23
                    costs (including a separate category for the dollar value of unsupported
                    costs) and funds to be put to better use.

 Section 5(a)(7)    Summary of each particularly significant report.                               6-7

 Section 5(a)(8)    Statistical table showing number of audit reports and dollar value of          24
                    questioned costs.

 Section 5(a)(9)    Statistical table showing number of reports and dollar value of                25
                    recommendations that funds be put to better use.

Section 5(a)(10)    Summary of each audit issued before this reporting period for which no         26
                    management decision was made by the end of the reporting period.

Section 5(a)(11)    Significant revised management decisions.                                     None

Section 5(a)(12)    Significant management decisions with which the Inspector General             None
                    disagrees.
Section
  5(a)(14)-(16)     Peer reviews.                                                                  21


*Refers to sections in the Inspector General Act of 1978, as amended.




                                                        27
OFFICE OF INSPECTOR GENERAL
           HOTLINE

IF YOU SUSPECT –

     FRAUD INVOLVING LSC GRANTS OR OTHER FUNDS
     WASTE OF MONEY OR RESOURCES
     ABUSE BY LSC EMPLOYEES OR GRANTEES
     VIOLATIONS OF LAWS OR LSC REGULATIONS



PLEASE CALL OR WRITE TO US AT –

    PHONE          800-678-8868 OR 202-295-1670
    FAX            202-337-7155
    E-MAIL         HOTLINE@OIG.LSC.GOV
    MAIL           P.O. BOX 3699
                   WASHINGTON, DC 20027-0199


 UPON REQUEST YOUR IDENTITY WILL BE KEPT CONFIDENTIAL
          REPORTS MAY BE MADE ANONYMOUSLY
